                              U.S. DEPARTMENT OF ENERGY
                             OFFICE OF INSPECTOR GENERAL




                                         AUDIT OF THE

        RADIOACTIVE LIQUID WASTE TREATMENT FACILITY OPERATIONS

                    AT THE LOS ALAMOS NATIONAL LABORATORY




The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                          Internet at the following alternative addresses:

                           Department of Energy Headquarters Gopher
                                      gopher.hr.doe.gov

                      Department of Energy Headquarters Anonymous FTP
                                     vm1.hqadmin.doe.gov

            Department of Energy Human Resources and Administration Home Page
                                  http://www.hr.doe.gov/ig

                Your comments would be appreciated and can be provided on the
                       Customer Response Form attached to the report.

                               This report can be obtained from the
                                   U.S. Department of Energy
                          Office of Scientific and Technical Information
                                           P.O. Box 62
                                  Oak Ridge, Tennessee 37831


Report Number: WR-B-98-01                                         Western Regional Audit Office
Date of Issue: November 19, 1997                                  Albuquerque, New Mexico
87185
                             AUDIT OF THE
        RADIOACTIVE LIQUID WASTE TREATMENT FACILITY OPERATIONS
               AT THE LOS ALAMOS NATIONAL LABORATORY




                                            TABLE OF CONTENTS


                                                                                                                         Page

            SUMMARY .................................................................................................           1

PART I -    APPROACH AND OVERVIEW .................................................................                           2

            Introduction ..................................................................................................       2

            Scope and Methodology ...............................................................................               2

            Background ...................................................................................................        3

            Observations and Conclusions ......................................................................               3

PART II -   FINDING AND RECOMMENDATIONS ...................................................                                   4

            Cost Effectiveness of the Radioactive Liquid Waste Treatment Facility
            Operations at the Los Alamos National Laboratory .....................................                            4

PART III - MANAGEMENT AND AUDITOR COMMENTS .....................................                                              8

PART IV - APPENDIX

            Related Office of Inspector General Audit Reports
                              U.S. DEPARTMENT OF ENERGY
                             OFFICE OF INSPECTOR GENERAL
                               OFFICE OF AUDIT SERVICES
                            WESTERN REGIONAL AUDIT OFFICE

                              AUDIT OF THE
         RADIOACTIVE LIQUID WASTE TREATMENT FACILITY OPERATIONS
                AT THE LOS ALAMOS NATIONAL LABORATORY

Audit Report Number: WR-B-98-01

                                            SUMMARY

        Los Alamos National Laboratory (Los Alamos) generates radioactive and liquid wastes
that must be treated before being discharged to the environment. Presently, the liquid wastes are
treated in the Radioactive Liquid Waste Treatment Facility (Treatment Facility), which is over 30
years old and in need of repair or replacement. However, there are various ways to satisfy the
treatment need. The objective of the audit was to determine whether Los Alamos cost effectively
managed its Treatment Facility operations.

         The audit determined that Los Alamos' treatment costs were significantly higher when
compared to similar costs incurred by the private sector. This situation occurred because Los
Alamos did not perform a complete analysis of privatization or prepare a "make-or-buy" plan for
its treatment operations, although a "make-or-buy" plan requirement was incorporated into the
contract in 1996. As a result, Los Alamos may be spending $2.15 million more than necessary
each year and could needlessly spend $10.75 million over the next five years to treat its
radioactive liquid waste. In addition, Los Alamos has proposed to spend $13 million for a new
treatment facility that may not be needed if privatization proves to be a cost effective alternative.

         We recommended that the Manager, Albuquerque Operations Office (Albuquerque),
(1) require Los Alamos to prepare a "make-or-buy" plan for its radioactive liquid waste treatment
operations, (2) review the plan for approval, and (3) direct Los Alamos to select the most cost
effective method of operations while also considering other factors such as, mission support,
reliability, and long-term program needs. Albuquerque concurred with the recommendations.



                                                       _________/s/___________
                                                       Office of Inspector General
                                            PART I

                                APPROACH AND OVERVIEW

INTRODUCTION

         As a management and operating (M&O) contractor, the University of California
(University) operates Los Alamos for the Department of Energy (DOE). Los Alamos is
involved in multiple areas of research and development, and as a result of these activities,
generates radioactive liquid waste and some industrial waste. Los Alamos treats these wastes
at its Treatment Facility. The objective of the audit was to determine whether Los Alamos cost
effectively managed its Treatment Facility operations.

SCOPE AND METHODOLOGY

      The audit was conducted at Los Alamos from January 13 through July 15, 1997. To
accomplish the audit objective, we:

       • reviewed the Fiscal Year (FY) 1997 Treatment Facility operation costs;

       • reviewed the terms and conditions of the prime contract between DOE and the
         University;

       • reviewed laws and regulations applicable to the treatment of radioactive liquid waste;

       • interviewed Environmental Protection Agency and New Mexico Environmental
         Department officials about regulations pertaining to Los Alamos' Treatment Facility;

       • reviewed Waste Management performance measures as they related to the Treatment
         Facility operations;

       • interviewed Los Alamos and DOE personnel responsible for the operation and
         oversight of Los Alamos' Treatment Facility; and,

       • reviewed Los Alamos documents concerning the Treatment Facility's budget, staffing,
         and operations.

        The audit was performed in accordance with generally accepted Government Auditing
Standards for performance audits and included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the audit objective. Accordingly, we reviewed
Los Alamos' controls for obtaining goods and services at the least cost to the Government. We
did not rely on computer-generated data to conduct the audit. Because our




                                                2
review was limited, it would not necessarily disclose all internal control deficiencies that may have
existed at the time of the audit. An exit conference was held with Albuquerque officials on
August 27, 1997.

BACKGROUND

         Los Alamos' Treatment Facility was constructed in 1960 and began operations in February
1963. The annual amounts of treated waste have ranged from a high of approximately 16.1
million gallons in 1968 to a low of about 4.6 million gallons in 1996. Los Alamos expects to treat
approximately 5 million gallons in 1997. Future volumes of waste are projected to increase to
about 7 million gallons per year by the year 2004. Although the waste is treated at this central
facility, it originates from various locations within Los Alamos. Currently, the waste is
characterized, collected in a storage tank, and then treated using a chemical precipitation process.
At the time of the audit, Los Alamos was transitioning to a new ultra filtration and reverse
osmosis treatment process, similar to that used in the private sector. Since the research programs
which generate the waste are expected to continue, Los Alamos will have a continuing need for
waste treatment.

OBSERVATION AND CONCLUSIONS

        During the audit, we noted that DOE began efforts to improve the cost effectiveness of
Los Alamos' liquid waste treatment operations. Specifically, the Los Alamos Area Office (Area
Office) compared Los Alamos' waste treatment costs to similar costs incurred in the private
sector. In addition, the Area Office required Los Alamos to benchmark the process for treating
radioactive liquid waste in order to identify ways to optimize operations and/or personnel. The
importance of benchmarking to determine cost effectiveness, in fact, has been pointed out in a
number of DOE Office of Inspector General (OIG) reports. An audit conducted at the Idaho
National Engineering Laboratory, for example, compared the M&O's architect and engineering
(A&E) costs against an industry and a state government benchmark. The comparison showed
that the M&O's A&E costs for 65 conventional construction projects were significantly higher
than comparable industry standards. Another OIG audit, conducted at Lawrence Livermore
National Laboratory, determined that the M&O contractor was pursuing three construction
projects despite not showing that the proposed projects were the best alternatives to meet mission
needs and minimize costs. A lack of established benchmarks to assess the reasonableness of the
total cost of designing, constructing, and managing these projects was listed as one of the causes.

        While we commend DOE for initiating its benchmarking efforts, we found that Los
Alamos costs to treat liquid wastes were high compared to treatment costs incurred in the private
sector. Consequently, we recommended that Los Alamos prepare a "make-or-buy" plan in order
to reach an informed decision about the cost effectiveness of its waste treatment operations.




                                                  3
                                               PART II

                           FINDING AND RECOMMENDATIONS

             Cost Effectiveness of the Radioactive Liquid Waste Treatment Facility
                       Operations at the Los Alamos National Laboratory

FINDING

         The DOE report, Making Contracting Work Better and Cost Less, stated that DOE must
ensure that its tasks are performed economically. Furthermore, the contract between the
University and DOE required Los Alamos to obtain property and services on a least-cost basis.
The audit determined, however, that Los Alamos' costs to treat its radioactive liquid waste were
significantly higher than those of the private sector. This occurred because Los Alamos neither
completed an analysis of the privatization alternative nor prepared a formal "make-or-buy" plan as
required by its contract with the DOE. As a result, Los Alamos may be spending $2.15 million
more than necessary each year and could needlessly spend $10.75 million over the next five years
to treat its radioactive liquid waste. In addition, Los Alamos has proposed to spend $13 million
for a new treatment facility that may not be needed.

RECOMMENDATIONS

       We recommend that the Manager, Albuquerque Operations Office:

       1. require Los Alamos to prepare a "make-or-buy" plan for its radioactive liquid waste
          treatment operations;

       2. review the plan for approval; and,

       3. direct Los Alamos to select the most cost effective method of operations while also
          considering other factors such as, mission support, reliability, and long-term program
          needs.

MANAGEMENT REACTION

       Albuquerque concurred with the recommendations. Management and auditor comments
are summarized in Part III.

                                    DETAILS OF FINDING

        The report, Making Contracting Work Better and Cost Less, pointed to significant and
systematic weaknesses in DOE's contracting practices and stated that DOE must ensure its tasks
are performed economically. The report also noted that M&O contractors are not always the best
entity to do the work if specific functions can be subcontracted at a lower cost. The report
indicated that numerous opportunities exist to buy direct program operations, technology


                                                 4
programs, infrastructure, landlord, and support activities from commercial sources in the private
sector. Furthermore, DOE policy encouraged privatizing services when it was appropriate and
cost effective. Finally, the contract between the University and DOE required Los Alamos to
prepare a "make-or-buy"1 plan and to acquire services on a least-cost basis.

TREATMENT COSTS

        Los Alamos' treatment costs were significantly higher when compared to similar costs
incurred by the private sector, specifically the nuclear power industry. The Area Office
determined that nuclear power companies which had outsourced treatment operations incurred an
average cost of 10 cents per gallon to treat similar waste streams while Los Alamos' cost ranged
from $1 to $2 per gallon. Although Los Alamos claimed that its treatment costs for FY 1997
were about 53 cents per gallon, it had excluded the costs for management, facility maintenance,
space and utilities, analytical services, quality control, regulatory compliance, information
management, and other support type costs in its calculation. We included these costs in our
calculation and estimated that Los Alamos' operational treatment costs were approximately $1.70
per gallon in FY 1997. Although Los Alamos' claimed cost of 53 cents a gallon is less than
DOE's reported cost of $1 to $2 per gallon and our estimated cost of $1.70, it is still significantly
higher than treatment costs in the private sector.

        The high cost of treating radioactive liquid waste within the DOE complex was indicated
by a study conducted by the Oak Ridge Operations Office (Oak Ridge). This study compared the
cost of Oak Ridge's waste water treatment operations against those in the private sector. The
results showed substantial differences not only in annual operating costs but also in the number of
personnel required for operation. For example, costs at three Oak Ridge treatment facilities were
approximately 3 to 15 times higher than those of the private sector while two Oak Ridge
treatment operations used approximately 30 more personnel than the private sector. The study
also observed that the actual difference between DOE's costs and private sector costs was even
larger since the comparison did not include the costs to treat or dispose of residuals such as,
sludge, spent carbon, or filter elements. As a result, this study recommended that Oak Ridge
treatment operations be evaluated for privatization.2

CAPITAL IMPROVEMENT COSTS

        Capital funds expended for the new treatment process and facility improvements will also
impact the overall treatment cost. Our calculation of $1.70 per gallon did not include costs for
capital improvements. If these costs are included, Los Alamos' total treatment costs would
become even higher. Los Alamos, for example, may spend approximately $5 million during FY
1997 for its new treatment process and other improvements. To address concerns with the
30-plus-year-old treatment facility, Los Alamos proposed to construct a new process facility at an
estimated cost of $13 million. However, if the treatment operations are privatized, a new facility
may not be needed.

1
  An analysis to determine if goods or services should be produced internally or acquired from outside sources.
2
  The process of procuring products or services in a more cost effective manner from commercial sources when
these products or services are normally provided, or could be provided, by DOE or one of its M&O contractors.


                                                         5
INCOMPLETE ANALYSIS

        In recent years, DOE has emphasized making cost effective "make-or-buy" decisions and
privatizing work where appropriate. Twice Los Alamos evaluated the privatization of waste
management activities. Although the data gathered showed that privatization could reduce costs,
Los Alamos never published a Request for Proposal to definitively establish the feasibility and
cost effectiveness of privatization. Los Alamos also has not prepared a "make-or-buy" plan,
although such a plan has been required by its contract with DOE.

        In an era of declining budgets, the importance of privatization has been emphasized by
DOE in several instances. As early as 1994, for example, the Secretary authorized $4.9 million
for a conceptual design effort for the Treatment Facility and mandated that privatization be
considered as an alternative. In December 1996, the Assistant Secretary for Environmental
Management stressed that more focus needed to be placed on privatization. The Office of
Environmental Management has also pointed to privatization as a key component for meeting
DOE's cleanup activities. Most recently, the Office of Waste Management's statement of its
operating principles, goals, and priorities for 1997 stated that it planned to implement
privatization for selected waste management projects and improve business practices through cost
analyses and benchmarking.

        Although Los Alamos has twice considered privatizing some waste management activities,
it did not perform a complete analysis of privatization. In March 1995, for example, Los Alamos
established a Privatization Working Group to identify the possibility of privatizing activities within
its Waste Management Program. This group identified radioactive liquid waste treatment as a
high priority for privatization and estimated that Los Alamos could realize a cost savings of 50-60
percent. In order to obtain Expressions of Interest from the private sector, an advertisement was
placed in the Commerce Business Daily. This advertisement resulted in 13 responses, thereby
indicating the private sector's willingness to treat Los Alamos' liquid waste. However, the
Privatization Working Group was disbanded in December 1995.

        In another effort to look at privatization, Los Alamos established a multidisciplinary team
in February 1996. The formation of this team was in response to a DOE request stipulating that
Los Alamos privatize one or more of its waste management activities. At the end of its
evaluation, the team reported that privatizing some waste management activities could reduce
costs, enable Los Alamos to concentrate on mission areas, reduce liability, create jobs, and
improve regulatory performance. The team concluded that publishing a Request for Proposal
would help assess private sector interest and capabilities. Furthermore, the report stated that the
private sector could use mobile treatment technologies and, thus, could resolve Los Alamos'
present and future waste facility needs.

        Despite the indicators showing that privatization could be beneficial, Los Alamos did not
complete its analysis by issuing a Request for Proposal. Without the cost information generated
by such a proposal, Los Alamos could not determine whether privatization was a feasible and cost
effective alternative. The lack of information was pointed out in a Los Alamos document which


                                                  6
stated that "because we don't have a bid from a contractor for the same Statement of Work as Los
Alamos is currently performing, an accurate estimate of potential savings cannot be made."

        Los Alamos also could not make an informed decision about liquid waste treatment
operations because it did not prepare a "make-or-buy" plan. Although the contract contained a
requirement to prepare such a plan, Los Alamos did not do so because it did not consider
this requirement a "hard and fast rule." An official pointed out that specifics regarding the
"make-or-buy" plan requirement were being worked out in the contract extension negotiations.
This official also explained that Los Alamos continued to treat waste in-house because of internal
resistance to privatization. Consequently, Los Alamos never prepared a "make-or-buy" plan
which would have helped determine whether privatizing its liquid waste treatment operations was
an economical alternative.

POTENTIAL SAVINGS

        By not ensuring that Los Alamos was using the most cost effective alternative to treat its
radioactive liquid waste, DOE may be spending more than necessary. We calculated the savings
on the privatization alternative. These calculations, however, generated different amounts of
potential savings. Using Los Alamos' claimed cost of 53 cents per gallon and the nuclear power
industry's average figure of 10 cents per gallon, we calculated that DOE could save $2.15 million
a year to treat 5 million gallons or about $10.75 million over the next five years. However,
potential savings could be significantly higher. Using our estimated cost of $1.70 per gallon,
which included support costs, we calculated that DOE could save about $8 million a year to treat
5 million gallons or approximately $40 million over a five-year period. Neither of these
calculations included the capital cost of the proposed $13 million new treatment facility. DOE
may be able to avoid this capital cost if it selects privatization and, thus, uses the private sector's
mobile treatment technology.

        Before Los Alamos proceeds with the further expenditure of capital funds for the
treatment facility, DOE should insist on a thorough analysis of privatizing the radioactive liquid
waste treatment operations. Early indicators show that treatment costs could be reduced, new
capital expenditures avoided, and the private sector could bring a mobile treatment unit on site.
Funds saved by identifying a more cost effective treatment alternative could be used for other
mission essential work.




                                                   7
                                            PART III

                       MANAGEMENT AND AUDITOR COMMENTS

       Albuquerque's Acting Assistant Manager for the Office of Environmental/Project
Management commented on the report and concurred with the recommendations. The Acting
Assistant Manager's comments are summarized below.

Recommendation 1

       Recommendation. Require Los Alamos to prepare a "make-or-buy" plan for its
radioactive liquid waste treatment operations.

       Management Comments. Albuquerque concurred and stated that Los Alamos has
committed to conduct a "make-or-buy" analysis of radioactive liquid waste collection and
treatment by March 31, 1997. According to the Acting Assistant Manager, DOE and Los Alamos
have discussed and agreed on the scope and schedule for completing the analysis.
The "make-or-buy" analysis will include the waste collection system within its scope.

      Auditor Comments. Albuquerque's comments and proposed actions are responsive to the
recommendation.

Recommendation 2

       Recommendation. Require Albuquerque to review the "make-or-buy" plan for approval.

      Management Comments. Albuquerque concurred and stated that DOE would review the
completed analysis.

      Auditor Comments. Albuquerque's comment and proposed action is responsive to the
recommendation.

Recommendation 3

        Recommendation. Direct Los Alamos to select the most cost effective method of
operations while also considering other factors such as, mission support, reliability, and
long-term program needs.

        Management Comments. Albuquerque agreed that after reviewing the "make-or-buy"
plan, DOE would decide how to obtain radioactive liquid waste collection and treatment services
in the future. The Acting Assistant Manager stated, however, that cost effectiveness should not
be the sole make-or-buy criterion. Other considerations include, mission support, reliability, and
consistency with long-term program plans.




                                                8
        Auditor Comments. We concluded that Albuquerque's comments and proposed action are
responsive to the recommendation. Although cost effectiveness may not be the only criterion, the
audit showed that privatization could be very beneficial to DOE from a financial point of view.
Thus, we trust that DOE will consider the importance of all factors before choosing a future
procurement method.




                                               9
                                                                                        Appendix
                                            PART IV

                                          APPENDIX

                       Related Office Of Inspector General Audit Reports

1. DOE/IG-0387, Audit of Architect and Engineering Costs at the Idaho National Engineering
   Laboratory, March 1996

        The objective of this audit was to determine whether architect and engineering (A/E)
services performed at the Idaho National Engineering Laboratory (Laboratory) were economical
when compared to cost standards for A/E services in industry and the State of Idaho. The audit
compared A/E costs for Laboratory projects to industry and State benchmarks. The report
showed that design costs for 65 conventional construction projects were, in the aggregate, about
$5.8 million higher than comparable industry standards. In addition, the audit showed that the
Laboratory spent approximately $1.6 million more than the State benchmark for comparable
projects. The situation occurred because the Laboratory did not have a way to measure the
performance of its design programs and the Operations Office's policy for the selection of A/E
services precluded competition.

2. WR-B-97-06, Audit of Renovation and New Construction Projects at Lawrence Livermore
   National Laboratory, June 1997

        The purpose of this audit was to determine if Livermore's proposed renovation and
new construction projects met mission needs at the least cost. The audit found that in pursuing
three projects, estimated to cost over $78 million, Livermore had not demonstrated that it had
selected the best alternatives for meeting Department of Energy (DOE) needs while minimizing
costs. Livermore was able to pursue these projects because the Oakland Operations Office
(Oakland) did not ensure that Livermore had performed cost and benefit analyses of all the
alternatives. Further, Oakland did not establish benchmarks to assess the reasonableness of the
total costs of the projects. As a result, it was likely DOE was spending more than necessary on
renovation and new construction projects at Livermore.

3. WR-B-94-06, Subcontracting for Environmental Services at Los Alamos National
   Laboratory, September 1994

        The audit reviewed the implementation of DOE and Los Alamos policies and procedures
for acquiring environmental services. Los Alamos did not always issue subcontracts for
environmental services in the manner most advantageous to the Government. The audit identified
problems with competition and reasonableness of costs and prices. These
conditions existed because Los Alamos did not adequately control its procurement process
and the Albuquerque Operations Office needed to improve its administration of Los Alamos'
procurement system. As a result, Los Alamos may not have obtained the most economical goods
and services and incurred about $1.5 million in unsupported costs in Fiscal Year 1993.
                                                    IG Report No. WR-B-98-01


                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that you consider sharing your
thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1.    What additional background information about the selection, scheduling,
      scope, or procedures of the audit or inspection would have been helpful to
      the reader in understanding this report?

2.     What additional information related to findings and recommendations
       could have been included in this report to assist management in
       implementing corrective actions?

3.     What format, stylistic, or organizational changes might have made this
       report's overall message more clear to the reader?

4.     What additional actions could the Office of Inspector General have taken
       on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name____________________________ Date__________________________

Telephone________________________ Organization____________________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                             Office of Inspector General (IG-1)
                             Department of Energy
                             Washington, D.C. 20585
                             ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.
